No. 20-826

 

In the Supreme Court of the Anited States

MIKE BROWN,
Acting Warden
Petitioner,
My

ERVINE DAVENPORT,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF FOR THE STATES OF ARKANSAS,
ALABAMA, ALASKA, ARIZONA, GEORGIA,
INDIANA, IOWA, KANSAS, KENTUCKY,
LOUISIANA, MISSISSIPPI, MISSOURI,
MONTANA, NEBRASKA, NEVADA,
OHIO, OKLAHOMA, PENNSYLVANIA,
SOUTH CAROLINA, SOUTH DAKOTA,
TENNESSEE, TEXAS, AND UTAH
AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,419 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 17, 2021.

 

Colin Casey Htgan
Wilson-Epes Printing Co., Inc.
